                         U.S. DEPARTMENT OF ENERGY
                        OFFICE OF INSPECTOR GENERAL




                  AUDIT OF THE DEPARTMENT OF ENERGY'S
                CONTRACTS WITH ENVIROCARE OF UTAH, INC.


The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                             http://www.hr.doe.gov/ig

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.

                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831




Report No.: ER-B-98-05                              Eastern Regional Audit Office
Date of Issue: December 10, 1997                    Oak Ridge, TN 37830
                  AUDIT OF THE DEPARTMENT OF ENERGY'S
                CONTRACTS WITH ENVIROCARE OF UTAH, INC.



                                      TABLE OF CONTENTS


                                                                                                             Page

              SUMMARY...................................................................................... 1

PART I   --   APPROACH AND OVERVIEW...................................................... 2

              Introduction...................................................................................... 2

              Scope and Methodology.................................................................... 2

              Background....................................................................................... 3

              Prior Reports..................................................................................... 4

PART II --    FINDING AND RECOMMENDATION.….................................... 5

              Use of Most Favorable Rates………………………………………                                                       5

PART III -- MANAGEMENT AND AUDITOR COMMENTS.........................                                            8
                           U.S. DEPARTMENT OF ENERGY
                          OFFICE OF INSPECTOR GENERAL
                            OFFICE OF AUDIT SERVICES
                         EASTERN REGIONAL AUDIT OFFICE


                   AUDIT OF THE DEPARTMENT OF ENERGY'S
                 CONTRACTS WITH ENVIROCARE OF UTAH, INC.


Audit Report Number: ER-B-98-05                                        December 10, 1997

                                        SUMMARY

         The Department of Energy (Department) is responsible for protecting human
health and the environment by providing an effective and efficient system that treats,
stores, and disposes of Departmental waste. The Department disposes of some of its
waste at Envirocare of Utah, Inc., (Envirocare) a commercial treatment and disposal
facility in Clive, Utah. The audit objective was to determine whether the Department and
its contractors were using the most favorable rates available for the disposal of waste at
Envirocare.

         We found that the Department's contractors did not always use the most favorable
rates available. Although volume discounts were available under Departmentwide
contracts, two of the Department's contractors awarded subcontracts to Envirocare with
rates that were higher than the Departmentwide rates. This occurred because the
Department did not require contractors to use the most favorable rates available. As a
result, the Department has incurred unnecessary costs to dispose of contaminated waste.
During the audit, one of the contractors reopened negotiations with Envirocare and
obtained a lower rate, thereby saving the Department about $2.3 million over the next
3 years.

        We recommended that the Assistant Secretary for Environmental Management
distribute a list of available Departmentwide contracts and rates and direct field activities
to require all contractors to use the most favorable rates available to the Department for
the treatment and disposal of waste.

       Management concurred with the finding and recommendation and initiated
appropriate action to correct the condition disclosed in the report.



                                                              /s/
                                                        Office of Inspector General




                                            1
                                          PART I

                             APPROACH AND OVERVIEW


INTRODUCTION

        The Department of Energy (Department) is responsible for the treatment, storage,
and disposal of contaminated waste at Departmental sites across the nation. The
Department disposes of some of its contaminated waste at Envirocare of Utah,
Inc., (Envirocare) a commercial treatment and disposal facility in Clive, Utah. The audit
objective was to determine whether the Department and its contractors were using the
most favorable rates available for the disposal of waste at Envirocare.


SCOPE AND METHODOLOGY

        The audit was performed from February 10, 1997, to August 22, 1997, at selected
Department sites; the U.S. Army Corps of Engineers (Corps) in Kansas City, Missouri;
and Envirocare facilities in Salt Lake City and Clive, Utah. The audit included a review of
the Department's contracts, subcontracts, and interagency agreements for the treatment
and disposal of waste at Envirocare between January 1, 1993, and August 22, 1997. The
audit also included proposals for the treatment and disposal of waste at Envirocare under
consideration as of August 22, 1997.

       To accomplish the audit objective, we:

       •   Reviewed contracts for the treatment and disposal of waste at Envirocare;

       •   Analyzed the cost and volume of Departmental waste disposed of at
           Envirocare;

       •   Evaluated the time spent establishing contracts with Envirocare; and

       •   Held discussions with Departmental and contractor personnel regarding past,
           current, and future contracts with Envirocare.

        The audit was performed in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed significant internal controls related to the Department's use of
contracts with Envirocare. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit.
We did not rely on computer-generated data to satisfy the audit objective.


                                           2
        In our opinion, the matters discussed in this report identified a material internal
control weakness within the Department that should be considered when preparing the
yearend assurance memorandum on internal controls. The internal control weakness
identified in this report is discussed in Part II.

      We discussed the audit results with the Acting Director, Office of Eastern Area
Programs of the Office for Environmental Restoration during an exit conference on
November 25, 1997.


BACKGROUND

        Envirocare operates a 540-acre commercial treatment and disposal facility located
in Clive, Utah. Envirocare is licensed by the Nuclear Regulatory Commission and the
Utah Divisions of Radiation Control and Solid and Hazardous Waste and has the ability to
treat and permanently dispose of 12.2 million cubic meters of waste. This waste includes
mixed and low-level waste, uranium and thorium mill tailings, and naturally occurring
radioactive material. The Environmental Protection Agency, Department of Energy,
Department of Defense, and many waste generators in the private sector have shipped
waste to Envirocare for treatment and disposal.

         In 1992, the Department began shipping waste to Envirocare for disposal. Since
then, 37 Departmental sites have used Envirocare for waste treatment and disposal. The
Department had shipped approximately 157,000 cubic meters of waste for disposal as of
June 1997. These shipments consisted of 79,000 cubic meters of uranium and thorium
mill tailings, 59,000 cubic meters of low-level waste, and 19,000 cubic meters of mixed
waste.

        During our audit, several legal issues arose involving the owner of Envirocare and
a former state official in the Utah Department of Environmental Quality, Division of
Radiation Control. In response to these issues, the Department and Envirocare signed a
consent agreement whereby the owner of Envirocare resigned and will have no role in the
management and control of the company until the legal issues are resolved. Further, the
Department provided guidance to each Field Office establishing a prerequisite of
contacting the Department's Office of General Counsel or the Office of Management
Systems prior to issuing a request for proposal or awarding a new contract for waste
disposal.



PRIOR REPORTS

      The Office of Inspector General (OIG) has issued three reports dealing with
shipments of contaminated waste to disposal facilities. In April 1992, the OIG issued


                                             3
Report DOE/IG-0308, Packaging, Transporting, and Burying Low-Level Waste. The
audit concluded that the Department's contractors were not using the most cost-effective
methods for disposing of low-level waste, and that the disposal rate charged by Envirocare
was significantly lower than the rates charged by Departmental sites. In February 1993,
the OIG issued Report DOE/IG-0320, Disposal of Excess Capital Equipment at the
Fernald Environmental Management Project, Fernald, Ohio. The audit disclosed that
Westinghouse Environmental Management Company of Ohio mixed contaminated
equipment with uncontaminated equipment, destroyed the equipment without
Departmental approval, and shipped the equipment to the Nevada Test Site for burial as
contaminated waste. In June 1994, the OIG issued Report ER-B-94-07, Audit of
Shipment of Low-Level Waste from Fernald to the Nevada Test Site. The audit concluded
that Fluor Daniel Fernald shipped usable materials to the Nevada Test Site as
contaminated waste, and that the contents of the shipments were not compacted to
maximize the use of burial space.




                                          4
                                          PART II

                         FINDING AND RECOMMENDATION

                                Use of Most Favorable Rates

FINDING

        Volume discounts were available under Departmentwide contracts with
Envirocare. However, two of the Department's contractors awarded subcontracts to
Envirocare with disposal rates that were higher than the Departmentwide rates. This
occurred because the Department did not require contractors to use the most favorable
rates available. As a result, the Department incurred unnecessary costs to dispose of
waste at Envirocare.


RECOMMENDATION

        We recommend that the Assistant Secretary for Environmental Management
distribute a list of available Departmentwide contracts and rates and direct field activities
to require all contractors to use the most favorable rates available to the Department for
the treatment and disposal of waste.


MANAGEMENT REACTION

        Management concurred with the finding and recommendation and agreed to take
corrective action. Part III of the report provides detailed management and auditor
comments.


                                  DETAILS OF FINDING


CONTRACTS WITH ENVIROCARE OF UTAH, INC.

       Since April 1993, the Department and its contractors established ten contracts with
varying rates for the treatment and disposal of mixed and low-level waste at Envirocare.
The Oak Ridge Operations Office (Oak Ridge) awarded a Departmentwide contract to
Envirocare for the disposal of mixed waste from all sites. Contractors awarded three
subcontracts for waste treatment, three subcontracts for waste disposal, and three
subcontracts for waste treatment and disposal at specific sites.




                                            5
       Besides its own contracts, the Department also had access to the Corps' contract
with Envirocare. The Corps’ contract provided for the disposal of mixed and low-level
waste by Federal agencies at volume-discounted prices. The Department had interagency
agreements with the Corps which allowed the Department to use the Corps’ contract with
Envirocare.

        Both Oak Ridge and the Corps obtained volume discounts in their contracts with
Envirocare because they anticipated that large volumes of waste would be shipped to Utah
for disposal. Oak Ridge's contract established a three-tiered pricing approach for mixed
waste. As the volume of waste shipped to Utah increased, the disposal cost per cubic
meter decreased. As of August 1997, all shipments under the Oak Ridge contract were at
the third tier with the least cost per cubic meter.


DEPARTMENTWIDE CONTRACTS NOT USED

       Although contracts with discounted prices were available, two of the Department's
contractors—Kaiser-Hill at the Rocky Flats Plant and Fluor Daniel Fernald at the Fernald
Environmental Management Project—established separate subcontracts with Envirocare
which included higher rates, thereby increasing the Department's costs unnecessarily.

        At the start of our audit, Kaiser-Hill was in the process of awarding a subcontract
for the transportation, treatment, and disposal of 13,200 cubic meters of mixed waste (soil
and debris). Under its proposal, the average disposal rate would have been $1,592 per
cubic meter including Kaiser-Hill's overhead, for a cost of $21 million. The average rate
using the Oak Ridge contract and including Kaiser-Hill’s overhead would have been only
$987 per cubic meter, for a cost of $13 million. We held discussions with personnel from
Rocky Flats Field Office and Kaiser-Hill, and recommended that they reopen negotiations
with Envirocare to obtain the Oak Ridge rate. Kaiser-Hill reopened negotiations with
Envirocare and obtained a lower rate—$1,349 per cubic meter including Kaiser-Hill's
overhead—for a cost of $17.8 million. As a result, the Department could realize savings
of $3.2 million over the next 3 years.

        We identified a similar situation at the Fernald Environmental Management
Project, where Fluor Daniel Fernald disposed of 88 cubic meters of debris containing
mixed waste at a rate of $3,004 per cubic meter, for a cost of $264,000. However, the
Department could have disposed of the waste through an interagency agreement with the
Corps at $2,573 per cubic meter, for a cost of $226,000. (The Oak Ridge contract was
not available at the time Fluor Daniel awarded its subcontract to Envirocare.) Thus, the
Department incurred $38,000 of unnecessary subcontract costs.




                                           6
NO REQUIREMENT TO USE MOST FAVORABLE RATES

        The Department incurred excess disposal costs because it did not require
contractors to use the most favorable, volume-discounted rates available. Kaiser-Hill was
aware that Oak Ridge had a contract with Envirocare, but it did not know the specific
rates available. Also, Fluor Daniel Fernald was aware that the Corps had a contract with
Envirocare; however, contractor representatives could not determine why the Corps'
contract was not used.


UNNECESSARY COSTS

       As a result, the Department incurred unnecessary costs to dispose of contaminated
waste. At the Fernald Environmental Management Project, the Department could have
avoided at least $38,000 by using an interagency agreement with the Corps instead of
allowing Fluor Daniel Fernald to establish a subcontract with Envirocare. Also, at the
Rocky Flats Plant, the Department could save $3.2 million over the next 3 years based on
the new disposal rate negotiated by Kaiser-Hill.




                                          7
                                          PART III

                    MANAGEMENT AND AUDITOR COMMENTS

       The Office for Environmental Management concurred with the finding and
recommendation and agreed to take corrective action. Management also agreed with the
estimated monetary impact of the report. Management's specific comments follow.

Recommendation. We recommended that the Assistant Secretary for Environmental
Management distribute a list of available Departmentwide contracts and rates and direct
field activities to require all contractors to use the most favorable rates available to the
Department for the treatment and disposal of waste.

         Management Comments. Management concurred. The Assistant Secretary issued
a memorandum directing field offices to consult with the Center of Excellence for Low-
Level and Mixed Low-Level Waste prior to entering into future contracts. The Center of
Excellence for Low-Level and Mixed Low-Level Waste, targeted to be fully established in
January 1998, will function as a "clearinghouse" for information and provide a single point
of contact for field offices. Management also stated that an existing bi-monthly report, the
Commercial Waste Disposal Report, issued by the Office of Environmental Restoration
would be supplemented to include Office of Waste Management information. This revised
report will provide the necessary information and points of contact for all existing and
pending waste treatment and disposal contracts. Further, management stated that field
offices involved in the procurement of waste management services will establish the
appropriate policy, procedures, or administrative controls necessary to assure that
contractors consider existing contracts prior to initiating site specific contracts. Finally, a
complex-wide solicitation is currently being developed for commercial disposal of low-
level waste, mixed low-level waste, naturally occurring radioactive materials, and mill
tailings which will "centralize" procurement services.

      Auditor Comments. Management's comments are responsive to the
recommendation.




                                            8
                                                      IG Report No._ER-B-98-01


                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that you consider sharing your
thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

       1.     What additional background information about the
              selection, scheduling, scope, or procedures of the audit or
              inspection would have been helpful to the reader in
              understanding this report?

       2.     What additional information related to findings and
              recommendations could have been included in this report to
              assist management in implementing corrective actions?

       3.     What format, stylistic, or organizational changes might have made
              this report's overall message more clear to the reader?

       4.     What additional actions could the Office of Inspector General have
              taken on the issues discussed in this report which would have been
              helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.


                                            9
10
